     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VI
                                                                          1100 Commerce Street, Room 632
                                                                          Dallas, TX 75242
October 21, 2011



Report Number: A-06-11-00035

Ms. Jacquelyn Douglas
Executive Director
Galveston County Community Action Council, Inc.
P.O. Box 3206
Galveston, Texas 77552

Dear Ms. Douglas:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Recipient Capability Audit of Galveston County Community
Action Council, Inc. We will forward a copy of this report to the HHS action official noted on
the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(214) 767-8414 or contact Ms. Sylvie Witten, Audit Manager, at (512) 339-3071 or through
email at Sylvie.Witten@oig.hhs.gov. Please refer to report number A-06-11-00035 in all
correspondence.

                                             Sincerely,



                                             /Patricia Wheeler/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Jacquelyn Douglas



Direct Reply to HHS Action Official:

Mr. Leon R. McCowan
Regional Administrator, Region VI
Administration for Children and Families
U.S. Department of Health and Human Services
1301 Young Street, Suite 914
Dallas, TX 75202-5433
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




RECIPIENT CAPABILITY AUDIT OF
GALVESTON COUNTY COMMUNITY
    ACTION COUNCIL, INC.




                       Daniel R. Levinson
                        Inspector General

                         October 2011
                         A-06-11-00035
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major objectives of the Head Start program are to promote
school readiness and to enhance the social and cognitive development of low-income children by
providing educational, health, nutritional, and social services.

Within the U.S. Department of Health and Human Services, the Administration for Children and
Families, Office of Head Start (OHS), administers the Head Start program. In fiscal year (FY)
2010, Congress appropriated $7.2 billion to fund Head Start‟s regular operations.

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
provided an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds were intended for activities such as expanding enrollment, funding cost-of-living wage
increases for employees of Head Start grantees, upgrading centers and classrooms, and bolstering
training and technical assistance.

Galveston County Community Action Council, Inc. (the Council), a nonprofit agency, operates a
Head Start program that serves approximately 400 3- to 5-year-old children and their families at
various locations in Galveston County, Texas. Federal Government grants are the Council‟s
primary funding source. For program year December 1, 2009, through November 30, 2010,
OHS awarded approximately $3.1 million in Federal Head Start funds to the Council. On June
30, 2009, the Council received $201,022 in Recovery Act funding. The Council also received
funds from the U.S. Department of Agriculture, the Community Services Block Grant program,
and the Comprehensive Energy Assistance Program.

OBJECTIVE

Our objective was to assess the Council‟s financial viability and capacity to manage and account
for Federal funds and to operate a Head Start program in accordance with Federal requirements.

SUMMARY OF FINDINGS

The Council generally is financially viable and has the capacity to manage and account for
Federal funds and to operate a Head Start program in accordance with Federal requirements.
However, we identified the following noncompliance issues:

       Fixed-fee contracts for consultants were inadequate.

       Property records had inaccurate information.

       The Council did not adequately segregate duties related to physical inventories.

       Procurement procedures were not complete or not followed.



                                                i
       Employees did not follow written procedures related to vendor payments.

       Matching contributions were overvalued, unreasonable, not properly documented, and
       not properly recognized in accounting records.

       The Council did not adequately protect Head Start enrollees‟ personal information.

These issues occurred because the Council did not have adequate controls over its property and
financial management systems. As a result, the Council claimed $34,700 in unallowable costs
for payments to consultants and $67,100 in unallowable in-kind contributions.

RECOMMENDATIONS

We recommend that the Council:

       refund $34,700 of unallowable costs for payments made to consultants;

       ensure that all contracts for services require invoices that specify the quantity and type of
       work provided;

       improve procedures used to maintain property records;

       ensure that individuals who maintain property records are not the same individuals who
       complete physical inventories;

       add written procedures for purchases in the $25,000 to $99,999 price range and ensure
       that employees follow written procurement procedures;

       ensure that employees follow written procedures for vendor payments;

       strengthen and implement procedures to ensure that (1) donated space and professional
       services are properly valued, (2) in-kind activities and the amount of time claimed are
       reasonable, and (3) only reasonable volunteer services are claimed and that services are
       documented;

       recognize the value of donated space and professional services in its accounting records;
       and

       use appropriate encryption standards to protect Head Start enrollees‟ personal
       information.




                                                 ii
THE COUNCIL’S COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, the Council concurred with several of our findings and
described actions it had taken to address them. However, the Council did not agree with our
findings related to fixed-fee contracts for consultants and in-kind valuation, reporting, and
recognition. The Council‟s comments are included in their entirety as the Appendix. Nothing in
the Council‟s comments caused us to change our findings or recommendations.




                                              iii
                                                  TABLE OF CONTENTS

                                                                                                                             Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Head Start Program ......................................................................................1
              Galveston County Community Action Council, Inc ....................................1
              Federal Requirements ..................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................1
               Objective ......................................................................................................1
               Scope ............................................................................................................2
               Methodology ................................................................................................2

FINDINGS AND RECOMMENDATIONS ....................................................................3

          FIXED-FEE CONTRACTS FOR CONSULTANTS ..............................................3

          PROPERTY RECORDS..........................................................................................4

          INVENTORY PROCEDURES ...............................................................................5

          PROCUREMENT PROCEDURES .........................................................................5

          VENDOR PAYMENTS ..........................................................................................5

          IN-KIND VALUATION, REPORTING, AND RECOGNITION ..........................5
                Donated Space .............................................................................................6
                Donated Professional Services .....................................................................6
                Volunteer Parent Services ............................................................................6
                Recognition of Revenue ...............................................................................7

          INFORMATION SECURITY .................................................................................7

          RECOMMENDATIONS .........................................................................................7

          THE COUNCIL‟S COMMENTS AND OFFICE OF INSPECTOR GENERAL
           RESPONSE............................................................................................................8

APPENDIX

          THE COUNCIL‟S COMMENTS




                                                                    iv
                                       INTRODUCTION

BACKGROUND

Head Start Program

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major objectives of the Head Start program are to promote
school readiness and to enhance the social and cognitive development of low-income children by
providing educational, health, nutritional, and social services.

Within the U.S. Department of Health and Human Services, the Administration for Children and
Families, Office of Head Start (OHS), administers the Head Start program. In fiscal year (FY)
2010, Congress appropriated $7.2 billion to fund Head Start‟s regular operations.

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
provided an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds were intended for activities such as expanding enrollment, funding cost-of-living wage
increases for employees of Head Start grantees, upgrading centers and classrooms, and bolstering
training and technical assistance.

Galveston County Community Action Council, Inc.

Galveston County Community Action Council, Inc. (the Council), a nonprofit agency, operates a
Head Start program that serves approximately 400 3- to 5-year-old children and their families at
various locations in Galveston County, Texas. The Council is funded primarily through Federal
Government grants. For program year December 1, 2009, through November 30, 2010, OHS
awarded approximately $3.1 million in Federal Head Start funds to the Council. On June 30,
2009, the Council received $201,022 in Recovery Act funding. The Council also received funds
from the U.S. Department of Agriculture, the Community Services Block Grant program, and the
Comprehensive Energy Assistance Program.

Federal Requirements

Pursuant to 45 CFR § 74.21, grantees are required to maintain financial management systems
that contain written procedures for determining the reasonableness, allocability, and allowability
of costs. Grantees must maintain accounting records that are supported by source documentation
and must maintain financial systems that provide for accurate and complete reporting of grant-
related financial data.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess the Council‟s financial viability and capacity to manage and account
for Federal funds and to operate a Head Start program in accordance with Federal requirements.


                                                1
Scope

We performed this review based on a request from OHS. We did not perform an overall
assessment of the Council‟s internal control structure. We reviewed only those internal controls
directly related to our audit objective. Our review period was the Council‟s FY 2010.

We performed our fieldwork at the Council‟s administrative office in Galveston, Texas, during
March and April 2011.

Methodology

To accomplish our objective, we:

        reviewed relevant Federal laws, regulations, and guidance;

        reviewed the Council‟s accounting, procurement, and financial reporting procedures and
        interviewed Council officials to gain an understanding of those procedures;

        reviewed Federal Government grant award documentation to determine the Council‟s
        Head Start and Recovery Act funding;

        reviewed the Council‟s audited financial statements for FYs 2006, 2008, and 2009, as
        well as unaudited financial statements for FY 2010;

        performed ratio analysis from the audited financial statements for FYs 2006, 2008, and
        2009 to assess the Council‟s financial position;

        reviewed the Council‟s general ledger, timesheets, invoices, bank reconciliations, and
        other supporting documentation;

        reviewed the Council‟s property records and performed a physical inventory of selected
        items at two facilities;

        reviewed monthly reports and supporting documentation for non-Federal share amounts;
        and

        reviewed the Council‟s board of directors composition and board meeting minutes.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                2
                          FINDINGS AND RECOMMENDATIONS

The Council generally is financially viable and has the capacity to manage and account for
Federal funds and to operate a Head Start program in accordance with Federal requirements.
However, we identified the following noncompliance issues:

       Fixed-fee contracts for consultants were inadequate.

       Property records had inaccurate information.

       The Council did not adequately segregate duties related to physical inventories.

       Procurement procedures were not complete or not followed.

       Employees did not follow written procedures related to vendor payments.

       Matching contributions were overvalued, unreasonable, not properly documented, and
       not properly recognized in accounting records.

       The Council did not adequately protect Head Start enrollees‟ personal information.

These issues occurred because the Council did not have adequate controls over its property and
financial management systems. As a result, the Council claimed $34,700 in unallowable costs
for payments to consultants and $67,100 in unallowable in-kind contributions.

FIXED-FEE CONTRACTS FOR CONSULTANTS

Pursuant to 2 CFR part 230, Appendix B, paragraph 37, the reasonableness and allowability of
costs for consultant services are determined by multiple factors, including: (1) the nature and
scope of the service rendered in relation to the service required; (2) the necessity of contracting
for the service, considering the nonprofit organization‟s capability in the particular area; (3)
whether the service can be performed more economically by employees rather than contractors;
and (4) the adequacy of the contractual agreement (e.g., description of the service, estimate of
the time required, rate of compensation, and termination provisions).

Pursuant to 45 CFR § 74.47, grantees must maintain a system for contract administration to
ensure contractor conformance with the terms, conditions, and specifications of the contract and
to ensure adequate and timely followup of all purchases. Recipients shall evaluate contractor
performance and document, as appropriate, whether contractors have met the terms, conditions,
and specifications of the contract.

Pursuant to 2 CFR part 230, Appendix A (A)(2)(g), to be allowable, a cost charged to a grant
must be adequately documented.

The Council claimed $34,700 in consultant costs that were not supported by adequate contractual
agreements and did not always have adequate documentation, such as invoices, to support the
services provided. Specifically:
                                              3
        The Council contracted with another Head Start agency to obtain technical training and
        assistance in 12 areas, including program governance, planning, communication, ongoing
        monitoring, self assessment, human resources, and fiscal management. The Council paid
        $20,000 to the other agency for these services. However, the contract did not require an
        invoice or other documentation to support the fees, and the Council did not provide any.
        Rather, the Council provided only training sign-in sheets that did not outline the types of
        services performed.

        The Council contracted for assistance in preparing an application for a facilities
        acquisition. The consultant for this contract was the executive director of the agency that
        provided the technical training and assistance. The scope of work stated that the
        consultant would provide “technical assistance in the following areas on an as needed
        basis: a. Facilities Application (Renovation and/or Construction) All technical assistance
        will be toward preparation of an acceptable facilities application that complies with 45
        CFR 1309.” The Council paid the consultant $7,500. However, the contract did not
        require documentation to support the fees, and the Council did not provide any.

        The Council contracted for information technology support. The consultant calculated
        monthly costs based on his estimate of the monthly support required for the Council‟s
        equipment. According to the contract, the consultant was to donate $28,008 (52 percent)
        of the total annual contract cost of $54,228 as an in-kind contribution for the non-Federal
        share of the cost.1 The Council allocated $7,200 of this contract to the Head Start
        program. Although the consultant provided the Council with an invoice, the invoice did
        not provide a detailed monthly listing of the services rendered. In addition, the Council
        did not sign the contract, which incorrectly stated that it was for “a period of 1 year,
        beginning April 1, 2009 and ending April 30, 2011.”

As a result, the Council claimed $34,700 for consultant services that were not allowable.

PROPERTY RECORDS

Pursuant to 45 CFR § 74.34(f)(3), grantees are required to maintain accurate records for
equipment acquired with Federal funds. The records should include identifying information,
including an identification number, such as the model or serial number, and the acquisition date
and cost.

The Council‟s property records had inaccurate identification numbers, acquisition dates, and cost
data. Specifically, during a physical inventory of subjectively selected items at two locations, we
found that property records:

        had inaccurate model numbers (five items), serial numbers (nine items), and a Council
        tag number (one item);

        did not include model numbers (five items) and serial numbers (two items);

1
 We will not consider the in-kind contribution for this contract unallowable because we did not verify the amount
actually claimed as in-kind and allocated to the Head Start program.
                                                         4
       did not include the Council tag numbers (two items); and

       had inaccurate acquisition dates and costs for a refrigerator and a computer.

INVENTORY PROCEDURES

Pursuant to 45 CFR § 74.34(f), grantees are required to take a physical inventory of equipment
every 2 years and reconcile the results with the equipment records. Pursuant to 45 CFR §
1304.50(g)(2): “Grantee and delegate agencies must ensure that appropriate internal controls are
established and implemented to safeguard Federal funds in accordance with 45 CFR § 1301.13.”

The Council did not adequately segregate duties related to physical inventories. Site managers
maintained facility inventory logs, performed physical inventories, and provided the results to
the Head Start program director. For the most recent inventory in January 2011, the Head Start
program director signed a memorandum stating that she had spot checked inventory logs and
updated the master inventory log. However, inventories should be completed by individuals who
are not also responsible for maintaining the inventory log.

PROCUREMENT PROCEDURES

Pursuant to 45 CFR § 74.44, grantees are required to establish written procurement procedures to
avoid purchasing unnecessary items. Furthermore, 45 CFR § 74.45 requires the grantee to
document the cost or price analysis in the procurement file for each procurement action.

The Council‟s written procedures omitted guidelines related to purchases priced in the $25,000
to $99,999 range. According to financial staff, the Council used the procurement procedures for
the $5,000 to $24,999 price range for all purchases up to $99,999.

Also, the Council did not always follow its written procedures. For example, the procurement
file for a purchase of seven computers included quotes from two vendors rather than three as
required by the Council‟s procedures. In addition, the Council did not complete a cost or price
analysis to document the selection of its vendor.

VENDOR PAYMENTS

Pursuant to 45 CFR § 74.21(b)(7), the grantee‟s accounting records should be supported by
source documentation. The Council‟s written procedures for its accounting system required the
accounting department to compare vendor invoices with purchase orders and receiving
documents. However, accounting employees stated that they did not always compare receiving
reports with invoices prior to payment. For example, the Council paid a $5,523 invoice for
seven computers without obtaining a receiving report that verified receipt.

IN-KIND VALUATION, REPORTING, AND RECOGNITION

Pursuant to 45 CFR § 1301.20, grantees are to provide 20 percent of the total cost of the program
through non-Federal share. Pursuant to 45 CFR § 74.23(a), matching contributions, to be
acceptable, must be necessary and reasonable for proper and efficient accomplishment of
                                                5
program objectives and be verifiable from the recipient‟s records. Pursuant to 45 CFR §
74.23(e), when an employer other than the recipient furnishes the services of an employee, these
services shall be valued at the employee‟s regular rate of pay (plus an amount of fringe benefits
that are reasonable, allowable, and allocable, but exclusive of overhead costs), provided these
services are in the same skill for which the employee is normally paid. Financial Accounting
Standard No. 116 (FAS 116) states that contributions received should be recognized as revenues
or gains in the period received and as assets, a decrease in liabilities, or expenses, depending on
the form of benefits received. FAS 116 also requires that contributions be measured at their fair
value. Eligible contributions include the use of facilities and services that require specialized
skills, such as accountants, architects, carpenters, doctors, electricians, lawyers, nurses,
plumbers, teachers, and other professionals and craftsmen.

The Council was required to provide $696,392 in non-Federal share; however, it provided
support for $835,615. The Council included $67,100 in unallowable in-kind contributions
because it overvalued donated space and volunteer professional services. However, we are not
recommending repayment because the Council had in-kind contributions in excess of its required
match. In addition, the Council did not recognize the value of the non-Federal share for donated
space and professional services in its accounting records.

Donated Space

The Council included $58,300 in unallowable in-kind contributions because it overvalued
donated space. The Council overvalued donated space for one center by $34,200 during FY
2010 because it used a monthly rental rate of $9,850 rather than $7,000. The appraised monthly
rate of $9,850 was applicable when the lessor paid all utilities. However, because the Council
paid the utilities for the facility, the applicable rate was $7,000 per month. The Council
overstated its match at two other centers because it continued to report non-Federal matching
contributions after discontinuing use of the facilities.

Donated Professional Services

The Council included an additional $8,800 in unallowable in-kind contributions because it
overvalued 81 hours of volunteer time for a prekindergarten coordinator. The Council valued the
coordinator‟s time at $150 per hour even though her hourly pay from the school district was
$41.36. Accordingly, the Council should have used an hourly rate of $41.36, a difference in FY
2010 of $8,800.

Volunteer Parent Services

The Council included $348,825 (42 percent) in in-kind contributions for parent services provided
outside of the classroom. The Council prepared Parent-Child Activities Time Sheets (time
sheets), which provided an average of 5 hours per week of daily activities to be completed for
each child. A significant number of hours recorded for these activities appeared unreasonable
because of the types of activities and the age of the children. Examples of activities for which 1
hour per day was reported were, “Make sure you‟re doing your homework,” “Hop, Skip, and
Twist 10 times each,” and “What are you going to do this summer?” According to a Council
official, the Head Start centers did not have enough volunteers, and the non-Federal share
                                                 6
recorded on the time sheets at the beginning of the year was not sufficient. Therefore, the
Council decided to enter on the time sheet the amount of time expected for the parent and child
to spend on the activity.

Additionally, the Council did not adequately document volunteer services. Forms used to
support volunteer services had:

       staff signatures that predated the date parents returned the form, which indicated that staff
       did not review the forms to ensure that activities had been completed;

       parent signatures dated before activities were completed;

       hours for which there were no documented activities;

       missing parent signatures; and

       activities that did not appear to be allowable program costs or reasonable for the amount
       of time reported, such as eating breakfast with children for Mother‟s Day and ensuring
       that a child‟s homework was complete.

Recognition of Revenue

The Council did not recognize the value of the non-Federal share for donated space and
professional services in its accounting records. The Council received donated space worth
$197,153 and contractor services worth $28,535 that it should have recognized as revenue in its
accounting records.

INFORMATION SECURITY

The Council did not adequately secure its wireless network as required by 45 CFR § 1304.51(g)
and the National Institute of Standards and Technology Special Publication 800-48, sections 3
and 4. Council employees used wireless networks to access a Web-based program that maintains
information on Head Start enrollees, including physicals, dental information, moves, phone
numbers for contacts and referrals, and eligibility information. The wireless routers we tested at
two facilities used wired equivalent privacy encryption, which is the weakest encryption
available for most routers. Because this type of encryption could have been broken using free
software obtained from the Internet, the Council‟s sensitive data was not secure. Encryption
provides additional protection for data that may be stolen or lost.

RECOMMENDATIONS

We recommend that the Council:

       refund $34,700 of unallowable costs for payments made to consultants;

       ensure that all contracts for services require invoices that specify the quantity and type of
       work provided;
                                                 7
       improve procedures used to maintain property records;

       ensure that individuals who maintain property records are not the same individuals who
       complete physical inventories;

       add written procedures for purchases in the $25,000 to $99,999 price range and ensure
       that employees follow written procurement procedures;

       ensure that employees follow written procedures for vendor payments;

       strengthen and implement procedures to ensure that (1) donated space and professional
       services are properly valued, (2) in-kind activities and the amount of time claimed are
       reasonable, and (3) only reasonable volunteer services are claimed and that services are
       documented;

       recognize the value of donated space and professional services in its accounting records;
       and

       use appropriate encryption standards to protect Head Start enrollees‟ personal
       information.

THE COUNCIL’S COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, the Council concurred with several of our findings and
described actions it had taken to address them. However, the Council did not agree with our
findings related to fixed-fee contracts for consultants and in-kind valuation, reporting, and
recognition of revenue. The Council‟s comments are included in their entirety as the Appendix.
Nothing in the Council‟s comments caused us to change our findings or recommendations.

Fixed-Fee Contracts for Consultants

The Council’s Comments

The Council did not concur with our findings and recommendations related to three fixed-fee
contracts for consultants. Regarding the contract for training and technical assistance, the
Council stated that regulations do not require that an invoice be received before payment is
made. In addition, the Council stated that the payment was proper because the consultant “only
had to show up and provide specified training for which they did,” that the Council had paid in
accordance with a legally binding contract, and that sign-in sheets support the consultant
agency‟s appearance. Regarding the contract for support of a facilities application, the Council
stated that the Regional Office had recommended that the Council obtain assistance to complete
the application and that the application and contract were support for the payment. Regarding
the contract for an information technology consultant, the Council stated that its policies require
consultants‟ “invoices to be specific as to „services provided,‟” and that its policies do not
require “„a detailed monthly listing of the services rendered.‟”
                                                  8
Office of Inspector General Response

For each of the three contracts, documentation was not adequate to verify that payment was
reasonable for the services provided. We did not maintain that regulations require an invoice;
however, 2 CFR part 230, Appendix A(A)(2)(g), requires that to be allowable, a cost charged to
a grant must be adequately documented. In addition, pursuant to 2 CFR part 230, Appendix B,
paragraph 37, the reasonableness and allowability of costs for consultant services are determined
by multiple factors, including the nature and scope of the service rendered in relation to the
service required and the adequacy of the contractual agreement (e.g., description of the service,
estimate of the time required, rate of compensation, and termination provisions). To determine
the reasonableness of costs for contracts without detailed descriptions of services or time
requirements, additional documentation, e.g., an invoice, is needed to compare services provided
with the amount paid.

The contract for training and technical assistance did not specify the type or quantity of training
required of the consultant agency. The scope-of-work section of the contract required the
contractor to provide “Technical training and assistance in the following areas in an ongoing, as
needed basis” and provided examples of those areas. Because the contract did not have specific
requirements and the Council did not have supporting documentation with sufficient detail to
show the amount and type of training that was provided by the contractor, we cannot determine
whether the cost was reasonable.

Regarding the facilities application contract, the Council had a contract and submitted a facilities
application but did not have any documentation to show the type or amount of work provided by
the consultant. The Regional Office recommendation that the Council obtain assistance to
complete the application is not a factor in the determination of cost reasonableness.

To determine the reasonableness of costs for the information technology contract, the consultant
needs to provide a record of services provided. Because this is a fixed-fee contract, the Council
is obligated to pay the consultant the same amount each month, regardless of the number of
hours worked by the consultant. Without documentation to show the services rendered, we
cannot determine the reasonableness of costs.

In-Kind Valuation, Reporting, and Recognition

The Council’s Comments

The Council did not concur with our findings and recommendations related to in-kind valuation,
reporting, and recognition. Regarding in-kind valuation and reporting, the Council said that the
findings should not be part of the report because the Council exceeded the amount of non-
Federal funding required by the grant award. However, the Council stated that it has
strengthened its procedures to ensure that the in-kind contributions it claims are reasonable.
Regarding recognition of the value of the non-Federal share for donated space and professional
service, the Council stated that recognition is at “the discretion of the non-federal auditor and
standards promulgated by the AICPA.”

                                                 9
Office of Inspector General Response

We reported that the Council met its requirement for non-Federal funding. We included these
issues in the report because the Council did not value and report non-Federal funding in
accordance with Federal requirements.

Financial Accounting Standard No. 116 (FAS 116) requires the recognition of contributions of
donated space and professional service. The Financial Accounting Standards Board issued this
standard in 1993, and it was to become effective for financial statements issued after 1995. FAS
116 established standards for accounting for contributions; the standards made unacceptable
those provisions in the American Institute of Certified Public Accountants‟ guides that were
inconsistent with FAS 116.




                                               10
APPENDIX
                                   Page 1 of 6
APPENDIX: THE COUNCIL’S COMMENTS
Page 2 of 6
Page 3 of 6
Page 4 of 6
Page 5 of 6
Page 6 of 6
